HHS/OIG, Audit -"Follow-up Audit of the Review of Accounts Receivable Amounts Reported by Associated Hospital Service of Maine (Anthem) at March 31, 1999,"(A-01-02-00512)
Department
of Health and Human Services
"Follow-up Audit of the Review of Accounts Receivable Amounts Reported by Associated Hospital Service of Maine (Anthem)
at March 31, 1999," (A-01-02-00512)
July 30, 2002
Complete
Text of Report is available in PDF format (531 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a prior report (A-01-99-00512), Anthem Health Plans of Maine (Anthem) overstated accounts receivable by $17.5 million
in unsupported receivables for the period ended March 31, 1999.  We performed a follow-up review to determine whether
(1) recommended actions in our prior report have been implemented or are in process, and (2) such actions have led or will
lead to the resolution of the prior findings.  We found that Anthem had adequately made most of the recommended adjustments
and adequately strengthened its financial reporting system.  However, Anthem still carried $10.2 million in unsupported
Medicare secondary payer (MSP) balances on its financial statements at December 31, 2001.  We recommended that Anthem
adjust the MSP receivable balance downward by $10.2 million.  Anthem agreed with our recommendation and made the adjustment
accordingly.